No. 19-292

 

IN THE
Supreme Court of the Gnited States

ROXANNE TORRES,

Petitioner,
v.
JANICE MADRID, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I, Brian R. Frazelle, do hereby declare that on February 6, 2020, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Constitutional Accountability Center as Amicus Curiae in Support of

Petitioner on counsel for each party to the above proceeding as follows:

E. Joshua Rosenkranz Mark Daniel Standridge
Orrick, Herrington & Sutcliffe LLP Jarmie & Rogers, P.C.

51 West 52nd Street P.O. Box 344

New York, NY 10019 500 North Church Street
jrosenkranz@orrick.com Las Cruces, NM 88004
212-506-5380 mstandridge@jarmielaw.com

575-526-3338
Counsel of Record for Petitioner

Counsel of Record for Respondents

I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 6, 2020.

Bm FP
Brian R. Frazelle
Counsel for Amicus Curiae
